District of Columbia
Court of Appeals
FILED
AUG 21 2019
District of Columbia
Court of Appeals
No. 18-CV-1031
MELISSA L. BARNETTE,
Appellant,
2015 CAR 9850

PROF-2013-M4 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE,
Appellee.
BEFORE: Fisher and McLeese, Associate Judges,
and Nebeker, Senior Judge.
JUDGMENT
On consideration of this court’s November 30,
2018, order limiting this appeal to review of only the
August 27, 2018, order denying appellant’s non-tolling
Super. Ct. Civ. R. 60(b) motion; appellee’s motion for
summary affirmance; appellant’s opposition and the
reply thereto; appellant’s motion for leave to file the

APPENDIX A-l

lodged surreply; the opposition and reply thereto;
appellant’s brief and appendix; and the record on
appeal; it is
ORDERED that appellant’s motion for leave to
file the lodged surreply is denied. See D.C. App. R.
27(a)(6) (providing that after a party files a reply “[n]o
further pleadings may be filed except with the court’s
permission and for extraordinary cause”). It is
FURTHER ORDERED that appellee’s motion for
summary affirmance is granted. See Oliver T. Carr
Mgmt., Inc. v. Nat’l Delicatessen, Inc., 397 A.2d 914,
915 (D.C. 1979). The trial court did not abuse its
discretion in denying appellant’s Super. Ct. Civ. R.
60(b) motion when, among other things, appellant only
offered conclusory allegations of fraud and forgery and
did not present a prima facie adequate defense to the
default. Farrow v. J. Crew Grp. Inc., 12 A.3d 28, 37
(D.C. 2011) (“Appellate review of denial of a 60(b)
motion is limited to whether the trial court abused its
discretion in denying the motion.”) Carrasco v. Thomas
D. Walsh, Inc., 988 A.2d 471, 475 (D.C. 2010)
(recognizing the following five factors the trial court
should consider in evaluating whether to grant relief
under this provision: “(1) whether the movant had
actual notice of the proceeding; (2) whether he acted in
good faith; (3) whether he presents a prima facie
adequate defense;. (4) whether he acted promptly in
seeking relief; and (5) the potential prejudice to the
non-moving party from granting the motion”). To the
extent she alleges appellee prevented her from curing
the default, appellant never offered any evidence to
support these claims. Cf. Must v. Cont’l Ins. Co., 644

A-2

A.2d 999, 1002 (D.C. 1994) (“Mere conclusory
allegations on the part of the non-moving party are
insufficient to stave off the entry of summary
judgment.”). In light of this disposition, we need not
address any remaining issues raised by appellant on
appeal. It is
FURTHER ORDERED and ADJUDGED that the
order on appeal is affirmed.
ENTERED BY
DIRECTION OF THE COURT:
/s/ Julio A. Castillo
JULIO A. CASTILLO
Clerk of the Court

Copies mailed to:
Honorable Jennifer DiToro
QMU — Civil Division
Melissa L. Barnette
2010 13th Street, NW
Washington, DC 20009
Copies e-served to:
Linda M. Barran, Esquire
Kevin Hildebeidel, Esquire

A-3

cml

District of Columbia
Court of Appeals

No. 18-CV-1031

09/12/2019

MELISSA L. BARNETTE,
Appellant,
CAR9850-15
PROF-2013-M4 LEGAL TITLE TRUST,
BY U.S. BANK NATIONAL ASSOCIATION,
AS LEGAL TITLE TRUSTEE,
Appellee.
Zabrina Dempson, Clerk
Superior Court of the District of Columbia

Dear M. Dempson:
The attached certified copy of the Decision in this
case, pursuant to Rule 41(a) of the Rules of this Court,
constitutes the mandate issued this date.

JULIO A. CASTILLO
Clerk of the Court

APPENDIX B

Filed
D.C. Superior Court
08/27/2018 14:42PM
Clerk of the Court
SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA
Civil Division
US BANK, NATIONAL ASSOCIATION, et al.
Plaintiff,
v.

Case No. 2015 CA 009580 R(RP)
Judge Jennifer A. Di Toro

MELISSA BARNETTE, et al.,
Defendants.

ORDER
This matter is before the Court on Defendant
Melissa Barnette’s Amended Motion to Reinstate Civil
Action to Vacate Trial Court’s Orders, Set Aside
Foreclosure Sale of Real Property Conducted on June
15, 2017, Court Appointed Trustees Deed Dated
September 15, 2017, Vacate Wrongful Default
Judgment Entered against Deft John Rest on October
21, 2016 filed on May 18, 20187. Plaintiff PROF-2013M4 Legal Title Trust filed its Opposition on June 4,
2018 and Defendant Barnette filed a Reply on June
APPENDIX C-l

28, 2018. For the reasons discussed herein, the Court
denies the Motion.
Factual and Procedural Background
Plaintiff brought suit to foreclose upon a Deed of
Trust in default under D.C. Code 42-816 against
Defendant’s John Reosti and Melissa Barnette on
December 22, 2015. Defendants, at the time, were the
record owners of the real property located at.lllO^Q *
Street NW, Washington, D.C. 20009. The property was
encumbered with a Deed of Trust on June 25, 2007,
securing a Note in the original principal amount of
$300,000.00. On April 20, 2017, the Court granted
Plaintiffs Motion for Summary Judgment and entered
an Order and Decree for Sale directing the Trustees to
conduct a sale as set out in the Court order. The
Trustees conducted the Sale on June 15, 2017, and on
August 8, 2017, the court entered an Order Granting
Motion to Ratify the Sale of Real Property Conducted
on June 15, 2017, allowing the Trustees to go to
settlement and issue a Trustees’ Deed. The Trustees
went to settlement with the 3rd party purchaser on
September 15, 2017, and recorded a Court Appointed
Trustees; Deed on September 19, 2017. Plaintiff
subsequently filed a Motion to Ratify Accounting to
which Defendant Reosti consented to.
Defendant Barnette did not file an opposition to
the Motion for Summary Judgement, the Motion to
Ratify Sale, or the Partial Consent Motion to Ratify the
Accounting, Release the Bond, and Close the Case. The
Court granted the partial Consent Motion to Ratify
Accounting, Release the Bond, and Close the Case on
December 7, 2017. Defendant filed her first Motion to
C-2

Reinstate and Vacate on April 20, 2018, which Plaintiff
opposed on May 4, 2018. Defendant Barnette filed this
Amended Motion to Vacate on May 18, 2018, seeking
to have the Court reinstate the civil action, vacate the
Court’s judgment order set aside the foreclosure sales,
and dismiss the foreclosure complaint pursuant to Rule
60(b) of the Superior Court Rules of Civil Procedure.
Legal Standard
Under Rule 60(b) of the Superior Court Rules of
Civil Procedure, the Court may relieve a party from an
order for reasons such as “mistake, inadvertence,
surprise, or excusable neglect; ... or any other reason
justifying relief from the operation of the judgment.”
Sup. Ct. Civ. R. 60(b). “The standard [for relief] under
Rule 60 (b)(6) is a stringent one, requiring a showing of
unusual or exceptional circumstances.” Puckrein v.
Jenkins, 884 A.2d 46, 60 (D.C. 2005) (citations
omitted). The rule is reserved for “extraordinary
situations justifying an exception to the overriding
policy of finality.” Clement v. District of Columbia
Dep’t of Human Servs., 629 A.2d 1215,1219 (D.C. 1993)
(citation omitted). “A necessary condition to such relief
is that circumstances beyond the moving party’s
control prevented timely action to protect its interests.”
Cox v. Cox, 707 A.2d 1297, 1299 (D.C. 1998) (citations,
internal alterations and quotation marks omitted). In
evaluating whether to grant relief pursuant to Rule
60(b), a court should consider the following factors: (1)
whether there was actual notice; (2) whether the

C-3

movant acted in good faith; (3) whether the movant
resent a prima facie adequate defense; (4) whether the
movant acted promptly; and (5) any prejudice to the
non-moving party. Carrasco v. Thomas D. Walsh Inc
988 A.2d 471, 475 (D.C. 2010).
Discussion
Defendant Barnette filed her Amended Motion to
Vacate on May 18, 2018, more than a year after
judgment was entered, and without any explanation
for her delay and failure to raise these issues while the
case was open. In the Amended Motion to Vacate
Defendant Barnette shows no unusual or exceptional
events that prevented her from litigating this case
prior to the entry of judgment. Instead, Defendant
Barnette seeks to circumvent this Court’s rules by
asserting her defenses more than a year after judgment
was entered. Defendant Barnette has had notice of this
case since 2015. She filed an Answer, appeared at the
Initial Scheduling Conference, and served discovery
requests however, she failed to file oppositions to
Motion for Summary Judgment, Motion to Ratify the
Sale, and Partial Consent Motion to Ratify the
Accounting. Rule 60(b) is not intended “to enable a
party to complete presenting [its] case after the court
has ruled against [it].” District No. 1 - Pacific Coast
District v. Travelers Casualty & Surety Co., 782 A.2d
269, 278 (D.C. 2001). Moreover, Defendant Barnette
has failed to present any prima facie defense to the
default and instead makes the same conclusory
allegations of fraud that are unsupported by the record

C-4

in this case. Therefore, Defendant Barnette has
provided no legal basis by which the Court can vacate
its order. Accordingly, the Motion is denied.
Accordingly, it is this 27th day of August, 2018,
hereby,
ORDERED, that Defendant Melissa Barnette’s
Amended Motion to Reinstate Civil Action to Vacate
Trial Court s Void Orders, Set Aside Foreclosure Sale of
Real Property Conducted on June 15, 2017, Court
Appointed Trustees Deed Dated September 15, 2017,
Vacated Wrongful Default Judgment Entered against
Deft John Reosti on October 21, 2016 is DENIED
SO ORDERED.
Is/

Copies to:
Linda Barran, Esq.
E-served via Casefilexpress
Counsel for Plaintiff
Melissa Barnette
2010 13th Street NW
Washington, DC 20009
Pro Se Defendant
John Reosti
11705 Camelot Way
Fredericksburg, VA 22407
Defendant

C-5

Jennifer A. Di Toro
Judge Jennifer A. Di Toro
Associate Judge
Signed in Chambers

Filed
D.C. Superior Court
06/29/2018
Clerk of the Court
SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA
Civil Division
US BANK, N.A, et al.
Plaintiff,

v.

Case No. 2015 CA 009580 R(RP)
Judge Jennifer A. Di Toro

MELISSA BARNETTE, et al.,
Defendants.

ORDER
Presently before the Court is Defendant Melissa
Barnette’s Motion for Leave to Exceed 20 page
Limitation, filed on April 20, 2018, and Ms. Barnette’s
Motion to Reinstate Civil Action and to Vacate Court’s
Orders Granting Motion for Summary Judgment, filed
on April 20, 2018. On May 18, 2018 Plaintiff filed an
Amended Motion to Reinstate Civil Action to Vacate
Trial Court’s Void Orders, Set Aside Foreclosure Sale of

APPENDIX D-l

Real Property Conducted, Court Appointed Trustees
Deed Dated, Vacate Wrongful Default Judgment
Entered against Defendant John Reosti and filed
another Motion for Leave to Exceed the Twenty Page
Limitation. Accordingly, the Court denies as moot the
April 20, 2018 Motion to Reinstate Civil Action and
Vacate Court’s Orders Granting Motion for Summary
Judgment and the April 20, 2018 Motion for Leave to
Exceed 20 Page Limitation. An Order is forthcoming
on the May 18, 2018 Amended Motion to Reinstate Civil
Action to Vacate Trial Court’s Void Orders, Set Aside
Foreclosure Sale of Real Property Conducted, Court
Appointed Trustees Deed Dated, Vacate Wrongful
Default Judgment Entered against Defendant John
Reosti.
Accordingly, it is this 26th day of June, 2018,
hereby,
ORDERED, that the April 20, 2018 Motion for
Leave to Exceed 20 page Limitation is
DENIED AS MOOT. It is further
ORDERED, that the April 20, 2018 Motion to
Reinstate Civil Action and to Vacate Court’s Orders
Granting Motion for Summary Judgment is DENIED
AS MOOT. It is further ORDERED, that the May 18,
2018 Motion for Leave to Exceed 20 page Limitation is
GRANTED.
SO ORDERED.
Is/

Jennifer A. Di Toro
Judge Jennifer A. Di Toro
Associate Judge
Signed in Chambers

D-2

Copies to:
Linda Barran, Esq.
E-served via Casefilexpress
Counsel for Plaintiff
Melissa Barnette
2010 13th Street NW
Washington, DC 20009
Defendant
John Reosti
11705 Camelot Way
Fredericksburg, VA 22407
Defendant

D-3

ms

17

/ r/

/

MIN:

Loan Number;

ADJUSTABLE RATE NOTE

(LIBOR SrsMomtl Index (At Published In The Wet Street JournalRate Caps)
•mis NOTE CONTAINS FR0V15KS& ALLOWING FOR CHANCES IN MY IHTEHEST
RATE AND MY MONTHLY 5/YMERT. THIS NOTE LIMITS THE AMOUNT MY
MBSTfAY RAVf' C>X CH),yCE *T ASV 0NK ™E *™ ™E MAXIMUM RATE I

i

?■

ft

1

y<\-

I

p

./

■AIM

1

/ ■ '
*

yy."
r<r:-

C S'

a,.

1 .»•
ir-!4«Ti

mm-.:-

1.
BORROWER’S PROMISE TO PAV
In return fora lean that I have received, [ promote to pay i.\.i 2 \iv-';.
aSed Tr!ncipal"). nlw Interest, tothr. order of Lender 1 >> vV s

;•

.n. ;• ..-si
/

fihls atunudi b

i vnii make ait payments under this Wots In the form of cash, check or money <mtkr.
1 understand that Lender jn>y transfer inis Nate. Lender or envone winsj takes this Note by tnuafer and wbo
is eaotled to receive payments wider this Note h called the ‘Not* Holder.'’
2.
INTEREST
Interest will be charged on unpaid principal until the full am non! of Principal liwbeeopUd. 1 tvjR pay interest
Now ^ *V ^ ^
The Inin cstrsic I \vfll pay nwv change In acordinc* vnrh Section f cl ilrh

i
3.

:i1

i

PAYMENTS
fA) Time tmi Place of Pcynteou
I will pay pilfictpo! and btiresi by making a payment every mouth.
Iwfll make my monthly payments on tf»c L$t day of rich monih beginning on
AUGUST 1
2007
I win make lh«e payments every month uiul I lave ,»ld ail of the prtndpal and ip&u and 3ny tAter
charges described below thsl (may,owe under flrfi Now. Each monthly payment will bearaMW as of fu scheduled
due date and will be applied toiwer cst before Principal. If. on
I nm <m*
osaoums toiler Ihts Note. I win pay those amfcrtU la fell on rfwt date, which it ailed the "Mctm fry Date.*
6<US4W^6SrniyPS>'m“321

£
:>

P‘°' S0X 806ni' KANSAS CITY, MISSOURI

m A,,.™,.* M, I„„W M„„,% p™
"“•
^"**«« * “» N'K
Eachcf my Initial monthly payment* will be m the arauunt of\« H >
*\ t
. This
amountt may change.
{C) Monthly Payment Change

form 3020 Wl
Ooct&yh;£Riness e»M*tur

APPENDIX E-l

r\

4.

INTEREST RATE AND MONTHLY PAYMENT CHANGES
(A) Change Dates
Tlte
rxc ) \vili
th pay my change on the 1st day of JULY, 2GQ9
. 3nct
on that day every 6 5: h njcmh thereafter, Each dare on which mv interest raw* couM change h called a 'Changt
Dilp."
(01 The Index
Beginning with the first Change Daw. my :m«at rmc will be based <>o *n Index, The ‘‘Index* fa the jveraee
o. impihsnti offered rites for ilx monlb U.S. doilar-dtoomiftaied deposits In the London marker ('UbQR'), as
pubtLshrrl In Ihe Wa ll Siren Journal. The most recent Index figure available as of tht lira burioo* day ofvV month
immediately preceding the nwnih fo which the Change Hate occurs Is called (hr "Cotrem Index.'
If the Index is f.0 longer svelteWe. (he Nore Holder will choose b mv index that Is bated upon comparable
inffinn*tk>h, The Note Holder will give me notice e/ this choice,
(C) Cslntlfttlon of Changer
,
***,a"^®
Note Holder will calculate sny new interest me hj adding pjvE ^tvD
mu
m2?
a,
' percent^ po&i« {
5.150 %) i» (ho Cutteot ?«&*. The Note
Koldtr will then iswndihc remit oTilrisaddUioc to the nearest ow-elginhof one pcrcenfflge point (0.12S$i). Subject
lo.fhv limits mted in Scciion -ifW Wow. Ihfc rounded emeuru will be my new Interest rue omit ihe nun Change
The Note Holder will Urea determine- the oinount of Ike monthly payment that would be sufficient tu reply the
unpaid principal tin; I are expected to owe at the Change Date in full on die Maturity Date *( my new interest rate
In substantially equal pyrnM*. The result of this cticutstlon will be tht new amsuni of my monthly payment
ID) Limits er. Interest Rate Changes
The tntttW Ilte 1 im required to pay at the first Change Dale will not be greater than
n. *00
less than
8.S0C %. Thereafter. my rnterest rale will never be i.icreated or druretuod or. ooy sh>jtf Change
Date by raw that. ONE AND 000/1000
percentage poletfs) f
1.000
%)
Trom ihe rate ofinurest 1 have leeti plying It* she preceding 6
urn tth*. My interest role will never be greater
thin
15.900 %. My Jmex«rs! rats mfl new be less thaa
0.900
%.
(El effective Dele of Changes
My new interest rate will bftcome effective on each Change Date. I v.-ill pay fht imuani of my new monthly
P®y,ntni beginning on tht fim moodily peymrot dale afirt tht Change Date until the amount of my monthly payment
ges agas
(F) Notice of Changes
I'N Note Holder wlfl delivet or nail in me a notice of any changes In my intern! role and lhe amount of mv
monthly payment before tht effective date of any eftattge. The police will Include Information required by law to it
&vtn 50 mt ond j!w ihc <il,h a"d Itlephunt number of» person who Mil answer any question l may have regarding
5.

BORROWER'S RIGHT TO PREPAY

Is known*3** '"P ^

^ Prjjf'clp:’1 *' n,'J'tlfiW before they ore due. A payment nf Principal only

I may not designate a payment at * Prepayment if I have hot made all the monthly payments (hie under this Mott
1 may make s |u» f-epaytuert or partial prepaymMs without paying any Pjepyaott charge, The Note We*
w.il use my Prepayments so reduce The amount of PfUKijnl that I owe uedei this Nott. Howvte, the Note Boldet
ma.y apply ray Prepayment to the accrued and unpaid Interest on the Prepayment amount before Bpplyin* my
Prepayment to reduce the Primal amount of ihh Note. If 1 make a partial Prepayment. there will be o£) chum
In the due dales of my monthly payment* unless ibe Note Holder agsees In writing'To tlnwe changes. M> nariia!
Prepayment may reduce ihe amount of my monthly payments after the fim Change Date fottoulnc my partial
Prepayment. Hovrmt, eny mlutiim: th» lo my partial Prepsymea may be offset by en iaicrcsl rale mcreate.

_
,
Form 35201/01
tk<we«(SSni)a icp^.r •;</
Wnw. docmapic. com

E-2

i '
i
1

s
k

a

1

1s
3

I1
3

6.

LOAM CHARGES
>f s iiiv. v.-ltel sppiiy to this losn and wMcb «U mirhnum loan charges. H finally interpreted jo (hat tite
interest or ciha loan charts collected or to he collected to connection tritothls Iron eateei tit permitted limits,
lien: (a) eny sech loss charge ihail &s reduced by the amoan! necessary to reduce the chugs to the permitted limit:
and {&} any wn>t alrtsdv collected from me that exceeded permitted limits 'rill fct refunded 10 tnt. Ttie Net* Holder
rnsy choose to mate tins refund by reducing the Pradpii l owe under this Note or by mtitg»direct payment«,
m*. If s refund redu/r« Principal, the rteuciton wifi be treated fis s partial Prepayment.

7.

BORROWER’S FAILURE TO PAY A$ REQUIRED
(A) Late Ctairgw for Overdue Psymeou

Jf thu Note Holder ha nut maved ihe full amoust of iny monthly payment by toe end of
]5
ct-jndti dsmr afrer the date n tv doe. f trill pay # huchn-ge to fire Note Holder. The amount effhe charge tvUI be
wy overdue payment of principal and (nisrat. I rlt) pay tlilt tee charge promptly bn only

once on cKh iatr payment.
W Default

If i qo not pay the fall amount of each monlhly psymeol on iht date It Is tea, l will he in dffault
(Cl Notice or Default
If I am in ilefaalt, tbs Note Holder may «nd me» wrlrttst notice telling rat that SI So not pay to* overdue
unotsit by b ccnaln daw, the Nwe Holdet may.reqvdte ne n> pay Immediately the MUnraurt of Principal that has
n« been paid and all <hf wteral ih« 1 to on that amount. Thai date must best Imji 30 daw liter the date oo wfcleb
«he ftotic e tt mailed to me or delivered by cihsr cm.
fD) N» M’oivu By Note Holder
tvea if. at 3 Ihnc wi-ai t era Ift tfefeaR. the Note Holder does nw retire ne to pay toimedtatrfyinfuiias
described above. to* Nmo Holder wtn still have the rigt* to do to if I am to default at a late? time.
IE) Payment of Note Holder's Costs and Expenses
tf the Note Holder fuu required me is pay IrundJatdy iofnll wdcjrribcdabev*. tbettete Holder wtr) «>»•«.
rtsfci to b* p»W back by rk for all of n$ costs and crptases in etifortiog this Note to the extern not prohibited by
spp ticzbU h\v. Thoi« «p*nt«s include, for example. reasonable attorneys' fees.
6. GIVING OF NOTICES
Unless applicable tiro require! t dtiTefeni method. any mute* that nrJSl he given to rat under this Now tvll! te
gh-eit by delivering ti or by fttlliog it by first cbm man lb mt at the Property Address afcovr or *i o different awSrns
if i give the Note HoJdti i notice of my different address.
Unless ihe Note Holder rtesbei a different tntihod, any xstiea that mtm be given to tht Note Holder under
iMuKeu utli Ibeginn by.maftfnjj it by first dess null to ilw Nor* Holder at tht address stated is Seaton 3{A) itreve
or a< a differessi address if l «m gjveo 4 notice of thit diHorcn! Mtfrwj.
9.

%
i

1

1

OBLIGATIONS OF PERSONS UNDER THIS NOTE
If re,ora fhsn ontt perton signs ttot Note, each fartor. it fatly
personify obligated to V-eep ill of tht
promiiM tiiadr m tort Note, indud'aij tht promise to pay the foil emeum.owed, Any person who n a guarantor,
sur ety or esterser of this Note is 2bo oMlgated to de these things. Arty person who laies over these obligstions.
todUiding use obltgifieas of a goaraaor. Jurety br endorser of Ihls Note, Uilso tdJlgated to keep all of toe promises
msd* in this Note. 'Hie Note Holder may enforce Its rights unda this Not* against jack person individually or against
sn of us together. Thft rceens that nc; one of ts may bt required 16 pay ell of tiw amounts otved under tob Note.
10. WAIVERS
fjuf. 1 inii.pny

P*15*"1

h« tibilgition? und« this Nwe wirt-e «w rttilti; of Presfatratni and Noii« ot

ofObhoxur* cans ihe right to rwjoire the Note Holder to ^r* notice to other STttenmnbAo lav^S
uunpatd.

mvv/.tfcctBefi.rcCT

I
»J

E-3

11. UNIFORM SECURED NOTE
This Kate isa uniform iitsirume*'. with Umtiwi variations in some jurisdictions. la addition to the p/ottr Huns
given lo the Note Holder unde? this Note, ft Mortgage, Owd of Trust, vf Security Deed (the 'Security Instrument-'),
dated the same dete is this Xtv.e. protects the Note Huidu from poutMe losses (hat might tesuh il i do not keep the
promise: that I oake to this Note. That Security Iratintneni describes hose smJ wide: what conditions 1 may be
requited to make Immediate paymenf fo foil afallamousls 1 owe under (tils Note. Sent d those conditions read ex
follows:
Transfer of the Property or a Bencfttiai Interest In Gerrowei. As used in this Scrtinn tft.
"Interest to the Property* means any kgs! or beneficial Imereti it the Pmprtty. metaling. bat not
limited «o. those beneficial interests transferred in a bond for deed, contrail for deed. Installment safes
contract or escrow agreement, the Iment of winch Is the Innslcr oflitie by Barnsweras a fuiore date to
a psreharer.
Kill or*ery part of the Propcity or any bdcrtxf in the Property to sold or transferred (or If Borrows
is net e ntnut at person srida beneficial interest in Borrower is sold ci transferred) without Lender's pricu
wrttlen tnnstfit, Lender may require immediate payment In full of all sums secured by this Sorority
Instrument. However . this option shall nnt be exercised by Usder if web exercise is prohibited by
Applicable. Law. Lender
shall r.ot exercise thb option if: (a) Borrower causes so be submitted ic
Lender information required by 1 t/nitr to evaluate the; totcodtd transferee ax If a new loan were being
made to the transferer; and (b) Le ndsr reasonably determines ih« Lender's security will not be iimpai.tred..
by the loan assumption and tliot (he risk of a beach of any covenant « agreement In this Security
Instrument is acceptable to Lender.
To thr extent permitted by Applicable I jsw. Lender may charge * reasonable fee as a condition m
Lender's cmuetit t o the loan assumption. Lender aho may rtqelre the transferee to sign an assumption
agreement that is acceptable to Lender end that obligates the irantftite to beep all tht pro miles ind
agrrranrMj made in the Note and tn this Security Infirumeflt. BoriOWer ml! tocitout (0 be obligated
under the Note and this Security instrument unless Lender releases Borrower in wriSting,
If Lender exercises the option to require tmntttllaie payment in full, Unde; *htall guive Borrower
notice of ateeferatitm. The notice shall provide a period of net lor than 30 days from the dwt« (He notice
j
by this
■»*» ven is accordance with Section IS within wfclrh Borrower most pay all suras secured
Seen rtty Jastroment If Borrower fails to pay these «m* prior ta (be expiration of this period. Lender
may invoke any re.rwdiri permitted by this Security Insimmcni will
ftinbrr r.utlcc or demand on
Borr Wit.

2

MtJlTiSTATt AOiUSTABLEStAIK NOTC^SO* WC-MOOTHWDEX
(AS PUBUSKK) IN rut WAli ST9tn JtXmAtl-Shg\t Famt!*
farras Kaa MOD? IF 0 traSTByrucwi
3 r^e * of J

E-4

tfcrm Si 20tflT
Qjtf-Cjrjtedh»3»ci r»ltt IMJ
■ (fcfmaptr.crwn

WITNESS TJ-IP. HA.VDES) aND SKAlfS) OF TUT. UNOERSfC.VEO.

--------------<Se» I)

------- ------ (S«>S)
- Borrower

•BoiTtmtr

\
---- <Se*r)

— {Sealj
Korruwer

-Corro’.vt r
Si ■

i-Vi <.,-<5v‘

/C-

I ’

si /

: j-r^srr'w^*?'""

\i

\
\
\

/

j

/'

/

/
/

A

!!/

!¥
\i

/S7£n Original OnJyj

forrr. 3S2G './O'
DocMa?tc#£hrair *\o.s»» usj

E-5

MIN:

Loan Number:

ADJUSTABLE RATE NOTE
(LIBOR Six-Month Index (As Published in The
Wall Street Journal)-Rate Caps)
THIS NOTE CONTAINS PROVISIONS ALLOWING FOR
CHANGES IN MY INTEREST RATE AND MY MONTHLY
PAYMENT. THIS NOTE LIMITS THE AMOUNT MY
INTEREST RATE CAN CHANGE AT ANY ONE TIME AND
THE MAXIMUM RATE I MUST PAY.

JUNE 25, 2007
[Date]

INDEPENDENCE
[City]

OHIO
[State]

1110 Q ST NW, WASHINGTON,
DISTRICT OF COLUMBIA 20009
[Property Address]
1. BORROWER’S PROMISE TO PAY
In return for a loan that I have received, I promise
to pay U.S. $300,000.00 (this amount is called
“Principal”), plus interest, to the order of Lender.
Lender is NOVASTAR MORTGAGE, INC., A
VIRGINIA CORPORATION
I will make all payments under this Note in the form of
cash, check or money order.
I understand that Lender may transfer this Note.
Lender or anyone who takes this Note by transfer and
who is entitled to receive payments un this Note is
called the “Note Holder.”

APPENDIX F-l

2.

INTEREST
Interest will be charged on unpaid principal until
the full amount of Principal has been paid. I will pay
interest at a yearly rate of 8.9000 %. The interest rate
I will pay may change in accordance with Section 4 of
this Note.
The interest rate required by this Section 2 and Section
4 of this Note is the rate I will pay both before and after
any default described in Section 7(B) of this Note.
3.

PAYMENTS
(A) Time and Place of Payments
I will pay principal and Interest by making a
payment every month.
I will make my monthly payments on the 1st day
of each month beginning on AUGUST 1, 2007. I will
make these payments every month until I have paid all
of the principal and interest and any other charges
described below that I may owe under this Note. Each
monthly payment will be applied as of its scheduled
due date and will be applied to interest before
Principal. If, on JULY 1, 2037, I still owe amounts
under this Note, I will pay those amounts in full on that
date, which is called the “Maturity Date.”
I will make my monthly payments at P.0 BOX
808911, KANSAS CITY, MISSOURI 64184- -8911 or at
a different place if required by the Note Holder.
(B) Amount of My initial Monthly Payments
Each of my initial monthly payments will be in the
amount of U.S. $ 2,392.31. This amount may change.
(C) Monthly Payment Changes
Changes in my monthly payment will reflect
F-2

changes in the unpaid principal of my loan and in the
interest rate that I must pay. The Note Holder will
determine my new interest rate and the changed
amount of my monthly payment in accordance with
Section 4 of this Note.
MULTISTATE ADJUSTABLE
Form 3520 1/01
RATE NOTE-LIBOR SIX-MONTH
DocMagiceForms 800-649-1382
INDEX (AS PUBLISHED IN THE WALL
www. docmagic. com
STREET JOURNAL>SINGLE FAMILY

Page 1 of 5

4. INTEREST RATE AND MONTHLY PAYMENT
CHANGES
(A) Change Dates
The interest rate I will pay may change on the 1st
day of JULY, 2009, and on that day every 6th month
thereafter. Each date on which my interest rate could
change is called a “Change Date.”
(B) The Index
Beginning with the first Change Date, my interest
rate will be based on an Index. The “Index” is the
average of Interbank offered rates for six month U.S.
dollar-denominated deposits in the London market
(“LIBOR”), as published in The Wall Street Journal.
The most recent Index figure available as of the first
business day of the month immediately preceding the
month in which the Change Date occurs is called the
“Current Index.”
F-3

'\

If the Index is no longer available, the Note
Holder will choose a new index that is based upon
comparable information. The Note Holder will give me
notice of this choice.
(C) Calculation of Changes
Before each Change Date, the Note Holder will
calculate my new interest rate by adding FIVE AND
150/1000 percentage points (5.150%) to the Current
Index. The Note Holder will then round the result of
this addition to the nearest one-eighth of one
percentage point (0.125%). Subject to the limits stated
in Section 4(D) below, this rounded amount will be my
new interest rate until the new Change Date.
The Note Holder will then determine the amount
of the monthly payment that would be sufficient to
repay the unpaid principal that I am expected to owe
at the Change Date in full on the Maturity Date at my
new interest rate in substantially equal payments. The
result of this calculation will be the new amount of my
monthly payment.
(D) Limits on Interest Rate Changes
The interest rate I am required to pay at the first
Change Date will not be greater than 11.900% or less
than 8.900%. Thereafter, my interest rate will never
be increased or decreased on any single Change Date
by more than ONE AND 000/1000 percentage point(s)
(1.000%) from the rate of interest I have been paying
for the preceding 6 months. My interest rate will never
be greater than 15.900%. My interest rate will never
be less than 8.900%.
F-4

(E) Effective Date of Changes
My new interest rate will become effective on each
Change Date. I will pay the amount of my new monthly
payment beginning on the first monthly payment date
after the Change Date until the amount of my monthly
payment changes again.
(F) Notice of Changes
The Note Holder will deliver or mail to me a notice
of any changes in my interest rate and the amount of
my monthly payment before the effective date of any
change. The notice will include information required
by law to be given to me and also the title and teleph one
number of a person who will answer any question i may
have regarding the notice.
5.

BORROWER’S RIGHT TO REPAY
I have the right to make payments of Principal at
any time before they are due. A payment of Principal
only is known as a “Prepayment.” When I make a
Prepayment, I will tell the Note Holder in writing that
I am doing so. I may not designate a payment as a
Prepayment if I have not made all the monthly
payments due under this Note.
I may make a full Prepayment or partial
Prepayments without paying any Prepayment charge.
The Note Holder will use my Prepayments to reduce
the amount of Principal that I owe under this Note.
However, the Note Holder may apply my Prepayment
to the accrued and unpaid interest on the Prepayment
amount before applying my Prepayment to reduce the

F-5

Principal amount of this Note. If I make a partial
Prepayment, there will be no changes in the due dates
of my monthly payments unless the Note Holder agrees
in writing to those changes. My partial Prepayment
may reduce the amount of my monthly payments after
the first Change Date following my partial
Prepayment. However, any reduction due to my
partial Prepayment may be offset by an interest rate
increase.
MULTISTATE ADJUSTABLE
Form 3520 1/01
RATE NOTE-LIBOR SIX-MONTH
DocMagiceForms 800-649-1382
INDEX (AS PUBLISHED IN THE WALL
www. docmagic. com
STREET JOURNAL)-SmGLE FAMILY

Page 2 of 5
6.

LOAN CHARGES
If a law, which applies to this loan and which sets
maximum loan charges, is finally interpreted so that
the interest or other loan charges collected or to be
collected in connection with this loan exceed the
permitted limits, then; (a) any such loan charge shall
be reduced by the amount necessary to reduce the
charge to the permitted limit; and (b) any sums already
collected from me that exceeded permitted limits will
be refunded to me. The Note holder may choose to
make this refund by reducing the Principal I owe under
this Note or by making a direct payment to me. If a
refund reduces Principal, the reduction will be traced s
a partial Prepayment.
F-6

7.

BORROWER’S FAILURE TO PAY AS
REQUIRED
(A) Late Charges for Overdue Payments
If the Note Holder has not received the full
amount of any monthly payment by the end of 15
calendar days after the date it is due, I will pay a large
charge to the Note Holder. The amount of the charge
will be 5.000% of my overdue payment of principal
and interest. I will pay this late charge promptly but
only once on each late payment.
(B) Default
If I do not pay the full amount of each monthly
payment on the date it is due, I will be in default.
(C) Notice of Default
If I am in default, the Note Holder may send me a
written notice telling me that if I do not pay the
overdue amount by a certain date, the Note Holder may
require me to pay immediately the full amount of
Principal that has not been paid and all the interest
that I owe on that amount. That date must be at least
30 days-after the date on which the notice is mailed to
me or delivered by other means.
(D) No Waiver By Note Holder
Even if, at a time when I am in default, the Note
Holder does not require me to pay immediately in full
as described above, the Note Holder will still have the
right to do so if I am in default at a later time.
(E) Payment of Note Holder’s Costs and
Expenses
If the Note Holder has required me to pay
immediately run full as described above, the Note
F-7

Holder will have the right to be paid back by me for all
of its costs and expenses in enforcing this Note to the
extent not prohibited by applicable law.
Those
expenses include, for example, reasonable attorneys’
fees.
8.

GIVING OF NOTICES
Unless applicable law requires a different
method, any notice that must be given to me under this
Note will be given by delivering it or by mailing it by
first class mail to me at the property Address above or
at a different address if I give the Note Holder a notice
of my different address.
Unless the Note Holder requires a different
method, any notice that must be given to the Note
Holder under this Note will be given by mailing it by
first class mail to the Note Holder at the address stated
in Section 3(A) above or at a different address if I am
given a notice of that different address.
9.

OBLIGATIONS OF PERSONS UNDER THIS
NOTE
If more than one person signed this Note, each
person is fully and personally obligated to keep all of
the promises made in this Note, including the promise
to pay the full amount owed. Any person who is a
guarantor, suety or endorser of this Note is also
obligated to do these things. Any person who takes
over these obligations, including the obligations of a
guarantor, surety or endorser of this Note, is also
obligated to keep all of the promises made in this Note.
F-8

The Note Holder may enforce its rights under this Note
against each person individually or against all of us
together. This means that any one of us may be
required to pay all of the amounts owed under this
Note.
10.

WAIVERS
I and any other person who has obligations under
this Note waive the rights of Presentment and Notice
of Dishonor. “Presentment” means the right to require
the Note Holder to demand payment of amounts due.
“Notice of Dishonor” means the right to require the
Note Holder to give notice to other persons that
amounts due have not been paid.

MULTISTATE ADJUSTABLE
Form 3520 1/01
EATE NOTE-LIBOE SIX-MONTH
DocMagiceForms 800-649-1382
INDEX (AS PUBLISHED IN THE WALL
www.docmagic.com
STREET JOURNA LJ-SINGLE FAMILY

Page 3 of 5

11. UNIFORM SECURED NOTE
This Note is a uniform instrument with limited
variations in some jurisdictions. In addition to the
protections given to the Note Holder under this Note, a
Mortgage, Deed of Trust, or Security Deed (the
“Security Instrument”), dated the same date as this
Note, protects the Note Holder from possible losses
that might result if I do not keep the promises that I

F-9

make in this Note. That Security Instrument describes
how and under what conditions I may be required to
make immediate payment in full of all amounts I owe
under this Note. Some of those conditions read as
follows:
Transfer of the Property or a Beneficial
Interest in Borrower. As used in this Section 18,
“Interest in the Property” means any legal or beneficial
interest in the Property, including, but not limited to,
those beneficial interests transferred in a bond for
deed, contract for dee, installment sales contract or
escrow agreement, the intent of which is the transfer of
title by Borrower at a future date to a purchaser.
If all or any part of the Property or any Interest in
the Property is sold or transferred (or if Borrower is not
a natural person and a beneficial interest in Borrower
is sold or transferred) without Lender’s prior written
consent, Lender may require immediate payment in
full of all sums secured by this Security Instrument.
However, this option shall not be exercised by Lender
if such exercise is prohibited by Applicable Law.
Lender also shall not exercise this option if: (a)
Borrower causes to be submitted to Lender information
required by Lender to evaluate the intended transferee
as if a new loan were being made to the transferee; and
(b) Lender reasonably determines that Lender’s
security will not be impaired by the loan assumption
and that the risk of a breach of any covenant or
agreement in this Security Instrument is acceptable to
Lender.
F-10

To the extent permitted by Applicable Law,
Lender may charge a reasonable fee as a condition to
Lender’s consent to the loan assumption. Lender also
may require the transferee to sign an assumption
agreement that is acceptable to Lender and that
obligates the transferee to keep all the promises and
agreements made in the Note and in this Security
Instrument. Borrower will continue to be obligated
under the Note and this Security Instrument unless
Lender releases Borrower in writing.
If Lender exercises the option to require
immediate payment in full, Lender shall give Borrower
notice of acceleration. The notice shall provide a period
of not less than 30 days from the date the notice is
given in accordance with Section 15 with which
Borrower must pay all sums secured by this Security
Instrument. If Borrower fails to pay these sums prior
to the expiration of this period, Lender may invoke any
remedies permitted by this Security Instrument
without further notice or demand on Borrower.
MULTISTATE ADJUSTABLE
Form 3520 1/01
RATE NOTE-LIBOR SIX-MONTH
DocMagiceForms 800-649-1382
INDEX (AS PUBLISHED IN THE WALL
www docmasic com
STREET JOURNAL)-SmGLE FAMILY
w.docmagtc.com

Page 4 of 5

F-ll

WITNESS THE HAND(S) AND SEAL(S) OF THE
UNDERSIGNED.
/s/
(Seal) /s/___________
(Seal)
MELISSA L. BARNETTE -Borrower JOHN REOSTI
Borrower
Atty. in fact
(Seal)
(Seal)
-Borrower
-Borrower
__(Seal)
(Seal)
-Borrower
-Borrower
__ (Seal)
(Seal)
-Borrower
-Borrower
Pay to the order of:
WELLS FARGO BANK, N.A., SUCCESSOR BY
MERGER TO WACHOVIA BANK. N.A.
WITHOUT RECOURSE
NovaStar Mortgage, Inc.
A Virginia Corporation
/s/ David A. Pazsan
David A. Pazgan, President/CEO
/s/

Gres Metz
Greg Metz, SVP/CFO

MULTISTATE ADJUSTABLE
Form 3520 1/01
RATE NOTE-LIBOR SIX-MONTH
DocMagiceForms 800-649-1382
INDEX (AS PUBLISHED IN THE WALL
www.docmagic.com
STREET JO URNALJ-SINGLE FAMILY

Page 5 of 5
F-12

SLS

To obtain fnfbfmafon about you account, contact SLS at
1-800-30W059 or visit our webate at www.Bls.nai
SLS accepts cafe from relay services on behalf of hearing
Impaired borrowers,

8742 Lucent Boulevard. Suite 300. Highlands Ranch, CO 80129

Mortgage Statement
Statement Date: 02/18/18
* 0kl27b£ QOOOM'IDH SSPS1 011L8HS

Account Number
Payment Due Date

MELISSA L BARNETTE
JOHN REOSTI
1110QSTNW
WASHINGTON DC 20009-4313

Total Amount Due *

1011378764
03/01/10

$60,690.04

ifpayment ts reeefretf tt»r oancn ft S12QM tsto fee
dwgeA

bo

_______________

llirill,li,iliil"llill,illlil,ilili,i,lll,l"i,,"i,,,ilili'lii

Property Address:
1110QSTNW
WASHINGTON

DC 20009
*£'

Account Information
Outstanding Pititcipat
Escrow Balance
Partial Payment (Suspense)*
Deferred Principal:

5284,970.50
$0.00
$551553
$0.00
$0.00
50.00
8.900%
No

D*f*rrt*) Intor&si:

Other Deferred Amounts;
Interest Rate (Una 07/01/“'
/2016)
Prepayment Penalty______

Explanation of Amount Due
Principal
Interest
Escrow (for Taxes and Insurance)
Optional Product
Regjdsr Montfi/y Payment
Total New Pees Charged
Past Due Amounts
Partial Payment (Suspense)* '

TOTAL AMOUNT DUE *

5382Z!
$2,057.53
$25655
$0.00

52,67535
$22.70
$83508.82
85,515.83

$60,690.04

•Transaction Activity (D1/OS/16 to 02/18/18)
Date

Description

Total

Ouurte

FEES BILLED PROP INSPECTION FEE
02/12/16 FEES BI11ED PROP INSPECTION FEE

1V35
11.35

Past Payments Breakdown

Principal

0.00
0.00

0D0
OJOQ

Escrow (for Optional
Fees/
Partial
Taxes and
Preduet Charges Payment
Irtsurance)
(Suspense)*
055
Q.OQ
iTST
TEST
0.00
0.001
1155
0.00

**PeQnquency Notice”
Last

Prindaal
Interest
Escrow fTaxes anrt Insurance)
reegChenwopdanaf Product
Partial Payment /SuspenseV*
Total

interest

nth

50.00
80.00
ib.OQ

Paid Year to
Date
.00

to.oo

50
55,515.83

SO.OO

SoIm

55,515.83

important ffimage*

)> You Are Experiencing Flnsndal DHticutty ynnmo)/nnnrgf^metT§~
Department of Housing and Urban Development (HUD) far a list of
homecwnereWp counselors or counseling organisations In your ares, csO
1-600-3Q94267 or go to htm7/w¥rw_nufliim^ifficeVhso/sfhrh<«ma.cfm
You are foto on your mortgage payments, FaSure to bring your loan
currem may rwurt in few end foreclosure-the toss of your home. As of
February 18,2016 you are OK days defsrsiuent on your mortgage loan.
Ycur loan is in foreclosure, the first notice or first legal ffing has teen
completed on your ban.

You ore currently du» for the 06/01/14 payment.

* Partial Poymonts: Arty partial payments that y
mortgage, but instead are hew b a suspense account If you pay the balance of a
partial payment tire fends w® then be app&ed to your mortgage. However. 8 the
loan b in foreclosure, unless fends are received pursuant to an agreed upon toss

megaton program, eny edffttona! funds received v® bo returned to you.

* Amount to bring loan current: Pteese note. If your account is past due. this
amount may not inetude afl fees or ether amounts necessary to fuBy reinstate vour
ban. Please canted SLS et 1-800306-6059 tor e to* reinstatement Quote.

Recent Account History
• Pastduearoowitasof09/01/15:$43,005.28
• Payment due 11/01/15: Amount Dus S2.547.68
• Payment due 12/01/15: Amount Due §2,687.63
• Payment due 01/01/16’. Amount Due §2,687.83
• Payment due 02/01/16: Amount Due S2,676.35
• 03/01/16: Current Payment Due $2,67055
• Total UnpaM Pees. Charges, and Uncoftoded Escrow Amount
$4,408.74

• Total K0.69054 due You must pay this amount to bring your
loan current*

PLEASE SEE REVERSE SIDE FOR IMPORTANT INFORMATION AND DISCLOSURES.

APPENDIX G

SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA
Civil Division
US BANK, NATIONAL ASSOCIATION,
NOT IN ITS INDIVIDUAL CAPACITY
BUT SOLELY AS TRUSTEE FOR THE
RMAC TRUST, SERIES 2013-1T
Plaintiff,
v.

Case No.: 2015 CA 009580 R(RP)
Judge Assigned: Judge Jennifer A. Di Toro
Next Event: Status Hearing
November 17, 2017 10:30 AM

MELISSA BARNETTE, et al„
Defendants.
PLAINTIFF’S ACCOUNTING AND
DISTRIBUTION OF FUNDS
COMES NOW, your Trustee, who submits the
following accounting of funds in connection with the
foreclosure of the subject property under this Court’s
Decree entered on or about March 20, 2017:
Property: 1110 Q Street NW, Washington, DC 20009
Legal Description: Parts of Lots 10 and 11 in Square
APPENDIX H-l

310 in a Subdivision made by Coltman and Adams,
Trustees, as per Plat recorded in Liber W.F. at folio 98,
described as follows: Beginning for the same at a point
on the South line of Que Street, NW, 27 feet East of the
Northwest corner of said Lot 10, and running thence
South 42 feet; thence West 13.50 feet along the South
line of said Lot 11, thence North 42 feet to said South
line of Que Street, thence East 13.50 feet to the Place
of Beginning. Note: At the date hereof the above
described land is designated on the records of the
Assessor for the District of Columbia for Assessment
and Taxation purposes as Lot 809 in Square 310.
Under Deed of Trust from: Melissa L. Barnette and
John Reosti Dated: June 25, 2007; Recorded as
Instrument # 2007089308
Requirements for publication: Once a week for four (4)
consecutive weeks
Publication Dates: 2017, May 17, May 24, May 31,
June 7
Sale date and place: June 15, 2017 at 12:17 PM; 5301
Wisconsin Ave, NW #750 Washington, D.C. 20015
Page 1
High Bidder: Ali Pahlavani Trust with a high bid
of $430,000.00.

H-2

Itemizations and supporting documentation for all
amounts set forth below are attached hereto and made
a part hereof.
FINAL ACCOUNTING
DEBITS

CREDITS

Principal
$ 284,970.50
Interest @ 8.9000% from
04/01/2014 to 06/15/2017
$ 81,286.94
Negotiated Interest
Post-Sale
$ 1,002.82
DC Real Property Tax
Advances 03/10/2015—
03/16/2017
$ 5,480.61
DC Real Property Tax
04/01/2017 to 06/15/2017
$
615.21
DC Real Property Tax past
due 2016 and first half 2017 $ 2,379.38
DC Water and Sewer
Balance
$
541.99
Hazard Insurance
12/16/2015—04/05/2017
$ 3,609.00
Escrow Advances
$
670.26
Corporate Advances
$ 1,094.95
Late Fees
$ 4,245.95
Property Inspections
$
192.95
Property Preservation from
04/23/2015 to 08/15/2017
$ 1,586.40
Suspense Balance
($ 5,515.83)

H-3

Auctioneer Cost
$ 400.00
Advertising
Washington Times $ 1.232.00
Total
$
Prior Firm Bankruptcy
Fees and Costs
Prior Firm Foreclosure
Fees and Costs
Stern & Eisenberg
Firm Costs
Stern & Eisenberg
Firm Fees

1,632.00

$

325.00

$

1,013.92

$

3,152.30

$

3,685.00

Page 2
Amount Due to Plaintiff

$ 391,969.35

Trustee’s Commission per
Paragraph 22 of Deed of
Trust 5% of gross
sales price

$

21,500.00

Alex Cooper’s Auctioneers,
Inc. Commission

$

10,350.00

H-4

Surplus Funds to Defendants
Melissa L. Barnette
and John Reosti

$

Sale Price

($ 430,000.00)

TOTAL DEBITS
TOTAL CREDITS
Total

6,180.65

$ 430,000.00
($ 430,000.00)
$ 430,000.00

($ 430,000.00)

WHEREFORE, having fully accounted for all
sums received, paid or transferred herein, your
Trustees move this Court to accept the Accounting,
release their bonds, and discharge the Trustees.

/s/ JAQUELINE F. MCNALLY
[ ] Steven K. Eisenberg, Court Appointed Trustee
[X] Jacqueline F. McNally, Court Appointed Trustee
9411 Philadelphia Road, Suite M.
Baltimore MD 21237 Tel (410) 635-5127
Page 3

H-5

Filed
D.C. Superior Court
04/20/2017 14:42PM
Clerk of the Court
SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA
Civil Division
US BANK, NATIONAL ASSOCIATION,
NOT IN ITS INDIVIDUAL CAPACITY
BUT SOLELY AS TRUSTEE FOR THE
RMAC TRUST, SERIES 2013-IT
Plaintiff,
v.

Case No. 2015 CA 009580 R(RP)
Judge Jennifer A. Di Toro

MELISSA BARNETTE, et al.,
Defendants.
ORDER GRANITNG MOTION FOR JUDGMENT
AND DECREE OF SALE
This matter is before the Court on Plaintiffs
Motion for Judgment and Decree of Sale, filed on March
20, 2017. Upon consideration of the motion, the entire
record herein, and for good cause shown, the motion is
granted.

APPENDIX 1-1

Factual and Procedural Background
Melissa
Barnette
and
John
Reosti
(“Defendants”) are the record owners of the real
property located at 1110 Q Street NW, Washington,
D C. 20009, by virtue of a title deed recorded with the
Recorder of Deeds. Statement of Material Facts
( SMF ) 1 1. On June 25, 2007, Defendants obtained a
mortgage loan in the amount of $300,000.00 and
executed both a promissory note evidencing the terms
of the Loan and a deed of trust encumbering the
Property. Id. 3. The Deed of Trust was recorded with
the Recorder of Deeds on July 6, 2007. Id. f 4. The
original Lender assigned it rights under the Note and
Deed of Trust to Plaintiff and Plaintiff is the current
holder of the note. Id. f 5; Compl. If 8.
On May 1, 2014, Defendants defaulted on the
Note by failing to make the required payments due
under the Note. Compl. 9. Thereafter, pursuant to
the Deed of Trust, Plaintiff mailed a demand letter
stating the total amount needed to cure the default.
Id., Ex. E. Defendants failed to cure the default and
pursuant to the Deed of Trust, the loan was
accelerated. Id. Tf 11.
Plaintiff filed the Complaint for judicial
foreclosure on December 21, 2015. Plaintiff now
requests that this Court enter judgment by default
again Defendant Roesti and judgment against
Defendant Barnette as a matter of law. On April 3,
2017, Defendant Barnette filed a praecipe stating that
she did not receive the instant motion until March 27,

1-2

2017, and indicating that she would file an opposition
by April 13, 2017. No opposition was filed.
Discussion
I.

Defendant John Reosti

Plaintiff seeks an entry of judgment by default
against Defendant Reosti pursuant to Rule 55(b)(2).
Plaintiff filed the Complaint on December 22, 2015.
Defendants initially retained Paul Hunt, Esq. to
represent them; on February 5, 2016, Mr. Hunt filed a
Motion to Withdraw which the Court granted at the
August 12, 2016 Initial Scheduling Conference.
Defendant Barnette accepted service at the August 12,
2016 hearing.
On September 1, 2016, Defendant Reosti was
personally served. Defendant Reosti did not file an
Answer or responsive pleading and on October 21,
2016, the Court entered an order of default against
Defendant Reosti. Plaintiff now moves for judgment by
default pursuant to Super. Ct. Civ. R. 55(b)(2). To date,
Defendant Reosti has failed to file an Answer or appear
before the Court at any proceedings in this matter. The
Court concludes that Defendant Roesti was personally
served with the Complaint and properly served with
the instant motion and did not respond. Plaintiff filed
a Servicemembers Affidavit on April 11, 2017, which
demonstrates that Defendant Reosti is not on active
duty military duty. The Court concludes that Plaintiff

1-3

has satisfied the requirements to obtain judgment by
default in this case, and is entitled to a judgment
against Defendant Reosti.
II.

Defendant Melissa Barnette

Plaintiff seeks an entry of judgment in its favor
as a matter of law against Defendant Barnette. Under
Rule 56(c), summary judgment shall be granted if the
record shows that there is no genuine issue of material
fact and that the moving party is entitled to judgment
as a matter of law. See Osbourne v. Capital City
Mortgage Corp., 667 A.2d 1321, 1324 (D.C. 1995);
Smith v. Washington Metropolitan Area Transit
Authority, 631 A.2d 387, 390 (D.C. 1993). “A genuine
issue of material fact exists if the record contains ‘some
significant probative evidence... so that a reasonable
fact-finder would return a verdict for the non-moving
party. Brown v. 1301 K Street Limited Partnership,
31 A.3d 902, 908 (D.C. 2011 (citing 1836 Street Tenants
Ass’n v. Estate of Battle, 965 A.2d 832, 836 (D.C. 2009)
(footnote omitted)). To determine which facts are
“material,” a court must look to the substantive law on
which each claim rests. Anderson v. Liberty Lobby,
Inc., All U.S. 242, 248 (1986).
The moving party has the burden to establish
that there is no genuine issue of material fact and that
it is entitled to judgment as a matter of law. Osborne,
667 A.2d at 1324. If the moving party carries this
burden, the burden shifts to the non-moving party to
show the existence of an issue of material fact. Bruno

1-4

v. Western Union Financial Services, Inc., 973 A.2d
713, 716 (D.C. 2009) (quotations and citations omitted);
Osbourne, 667 A.2d at 1324. The non-moving party
may not carry this burden merely with conclusory
allegations, Green, 164 F.3d at 675; rather he or she
“must produce at least enough evidence to make out a
prima facie case in support of his [or her] position.”
Bruno, 973 A.2d at 717.
Plaintiff seeks to enforce the Note and Deed
under D.C. Code § 42-816, which authorizes judicial
foreclosure and sale of real property as an equitable
remedy for a debtor’s breach of an obligations under a
Note secured by a Deed of Trust. The central issue in
a judicial foreclosure proceeding is whether the party
is in default. Johnson v. Fairfax Vill. Condo Unit. IV
Owners Ass’n, 641 A.2d 495, 506 (D.C. 1994). As
Defendant Barnette failed to file a statement of
disputed material facts, the Court may assume that the
facts as claimed by the Plaintiff are admitted to exist
without controversy.
Super. Ct. Civ. R. 12-I(k).
However, as Defendant Barnette is proceeding pro se
the Court will address the issues raised in the April 3,
2017 praecipe filed by Defendant Barnette.
Defendant Barnette raises three issues: (1)
Plaintiff is mailing filings and other documents to the
wrong address for Defendant Roesti; (2) Plaintiff
allegedly never intended to disclose the February 10,
2017 Motion to Substitute Party Plaintiff to
Defendants; and (3) Plaintiff abused the discovery
process by providing boilerplate objections to
Defendant Barnette’s Requests for Admissions and
Interrogatories. Defendant Barnette’s allegations that
filings were sent to the wrong address for Defendant
1-5

Roesti are inapplicable to the Motion for Summary
Judgment against her. Regarding the Motion to
Substitute Party Plaintiff, Defendant Barnette argues
that it was mailed to the wrong address for Defendant
Roesti and that she did not receive a copy until
February 22, 2017. Even if Defendant Barnette did not
receive a copy, until February 22, 2017, the time to file
an opposition or request an extension to respond to the
motion did not expire until February 27, 2017. Plaintiff
did not file an opposition nor request an extension to
respond to the motion and she does not now argue any
reason that the motion should not have been granted.
The Court granted Plaintiffs Motion to Substitute
Party Plaintiff on March 21, 2017, after Plaintiff
established that the Note had been assigned to another
party in interest. These arguments do not raise a
genuine dispute of material fact.
Finally, Defendant Barnette argues that the
Motion for Summary Judgment should not be granted
because Plaintiffs objections to the requests for
discovery and interrogatories are improper.
The
interrogatories that Defendant Barnette contends were
improperly objected to do not bear on the central issue
in this case—whether or not Defendants are in default,
which Defendant Barnette does not dispute.
Consideration paid for the assignment of the Note is
irrelevant to Plaintiffs right to foreclose under the
Note. Plaintiffs submissions establish that it is the
holder of the Note and is entitled to judicial foreclosure
pursuant to § 42-816 of the D.C. Code. Defendant

1-6

Barnette fails to raise any genuine dispute of material
fact and the Court concludes that Plaintiff is entitled
to judgment as a matter of law based on the undisputed
facts. The Motion for Summary Judgment shall be
granted.
Accordingly, it is this 20th day of April, 2017
hereby,
ORDERED, that Plaintiffs Motion for
Judgment and Decree of Sale is GRANTED. It is
further
ORDERED, that Judgment is entered in favor
of Plaintiff as prayed for in its Verified Complaint and
against Defendants Melissa Barnette and John Roesti.
It is further
ORDERED, that the District of Columbia
Recorder of Deeds shall record a copy of this Order in
the land records for 1110 Q Street NW, Washington,
D.C. 20009, as more specifically described in the
Complaint and attached exhibits, shall be conducted on
the following terms and conditions:
DECREE OF SALE
To the extent Steven K. Eisenberg, Jacqueline F.
McNally, and George E. Wise have been named as
Substitute Trustees as to the Property known as 1110
Q Street NW, Washington, DC 22209, and more
specifically described in the Complaint and attached
Exhibits prior hereto, the same is ratified and
confirmed, or, in the alternative, Steven K. Eisenberg,

1-7

Jacqueline F. McNally, and George E. Wise are
appointed as Substitute Trustees for purposes of
foreclosure. Upon posting a bond in the amount of
$25,000.00 into the Court, either of them, acting alone
or in concert, may proceed to foreclose upon the
Property known as 1110 Q Street NW, Washington, DC
20009, by public auction in accordance with the Deed
of Trust and the following additional terms:
1. In accordance with the contractual provisions
in Tf 22 of the Deed of Trust and the matter of
BFP v. Resolution Trust Corp., 511 U.S. 531,
543 (1994), the Trustees shall mail notice of
the time, place, and terms of the auction to all
junior lienholders, owners of record, and
occupants, by certified mail, return receipt
requested and by first class mail, no more
than 30 days and no less than 10 days, before
the auction date.
2. In accordance with the contractual provisions
in Tj 22 of the Deed of Trust, Super. Ct. Civ. R.
308(b)(1), the Trustees shall advertise the
time, place and terms of the auction, in a
newspaper of general circulation, once a
week, for four consecutive weeks leading up to
the auction.
3. Pursuant to the contractual provisions in If 22
of the Deed of Trust and Super. Ct. Civ. R.
1-8

308(b)(3), the Trustees may employ an
auctioneer for the sale process and incur
reasonable costs associated therewith.
4. Complying with the contractual provisions in
H 22 of the Deed of Trust, the Trustees can
appoint an Attorney to appear on behalf of the
Trustee to supervise and attend the sale.
5. In accordance with the contractual provisions
in H 22 of the Deed of Trust, the Trustees may
require a purchase to post a nonrefundable
deposit of up to 10% of the price bid in
certified funds, may condition the right to bid
or acceptance of bids upon a showing of said
deposits, and reserves the right to reject any
bid made by anyone who does not have the
deposit in hand at the auction.
6. Pursuant to D.C. Code §42-817, the
Philadelphia Newspaper cases, and RadLAX
Gateway Hotel, LLC v. Amalgamated Bank,
132 S. Ct. 2065 (2012, the deposit required to
bid at the auction is waived for the Noteholder
and any of its successors or assigns.
7. Pursuant to D.C. Code §42-817, the
Philadelphia Newspaper cases, and RadLAX
Gateway Hotel, LLC v. Amalgamated Bank,
132 S. Ct. 2065 (2012), the Noteholder may
bid up to the amount owed on the Note plus
1-9

all costs and expenses of sale on credit and
may submit a written bit to the Trustee which
shall be announce at sale.
8. Based upon the customs and practices in the
District of Columbia, the Trustees shall be
announced at sale.
9. In accordance with the contractual provisions
in T| 22 of the Deed of Trust and Perry v.
Virginia Mortgage and Investment Co., Inc.,
412 A.2d 1194, 1197 (D.C. 1980), the Trustees
may establish additional terms of sale as may
be appropriate in their judgment to promote
the best price at the auction so long as the
same remain consistent with, and do not
alter, the specific terms and conditions of the
Deed of Trust and this Decree.
10. In accordance with the contractual provisions
in Tf 22 of the Deed of Trust, Super. Ct. Civ. R.
308(b)(2), and D.C. Code §42-816, the
Trustees may enter into a contract of sale
with the highest qualified bidder subject to
ratification by the Court, and any
memorandum of sale must indicate that the
sale is subject to said ratification.
11. Complying with Super. Ct. Civ. R. 308(b)(2),
if a Third Party is successful at the auction
the bond shall be increased to the full amount
of the purchase price, which shall be posted
prior to ratification by this Court.
1-10

12. Pursuant to Super. Ct. Civ. R. 308(b)(4), the
Trustees shall file a Verified Report of Sale
with Court within thirty (30) days of the
auction. The Verified Report of Sale will
specify the time, place, terms of the sale, the
Purchaser, the purchase amount, and deposit
held
along with
an
affidavit
and
documentation indicating that the Trustees
complied with the notice and advertisement
requirements set forth above.
13. In accordance with the contractual provisions
in H 22 of the Deed of Trust, and unless
otherwise ordered at the time of ratification,
settlement shall occur by payment of all sums
due under the bid in certified funds to the
trustees within sixty (60) days from the entry
of an Order ratifying the Sale.
If the
purchaser fails or refuses to settle within the
allotted time frame, the deposit will be
forfeited and the Trustees may apply the
deposit toward costs, fees or their
compensation associated with the initial
auction and the resale process.
Any
remaining amount shall be credited to the
underlying debt.
14. Pursuant to the contractual provisions in 22
of the Deed of Trust, after the purchaser’s
funds submitted to the Trustees have cleared,
1-11

the Trustees shall execute and deliver a
Trustees’ Deed, transferring title to the
purchaser. The costs of recording the Deed
aforesaid shall be upon the purchaser.
15. In compliance with the contractual provisions
in 11 22 of the Deed of Trust and Super. Ct.
Civ. R. 308(b)(d), within sixty (60) days of
settlement, the Trustees shall file evidence of
the settlement including a copy of the
Trustee’s Deed, a proposed accounting and
distribution of funds, and a proposed order
ratifying the distribution. A Copy of the
aforesaid shall be sent to the borrower and all
junior lien holders and must inform them that
claims or disputes must be filed within
fourteen (14) days or the distribution may be
ratified without further hearing.
16. According to 1) 23 of the Deed of Trust, any
unclaimed funds due to the junior lienholders,
owner, or any other party, may be identified
for payment into the Court registry, and, upon
payment thereof the Trustees may request a
determination that their duties have been
discharged and the case be closed with the
bond released.
17. In compliance with H 22 of the Deed of Trust,
the Trustees shall be entitled to recover their
1-12

costs
incurred,
including
reasonable
attorney’s fees
and commissions
as
authorized by the Deed of Trust for the
execution of duties performed in accordance
with the foreclosure and this Decree as part of
the settlement. It is further
ORDERED that a status hearing will be held on
July 7, 2017, at 10:00 a.m. in Courtroom 518, in
anticipation that by that time, a motion to ratify the
terms of the sale will have been filed. That status
hearing may be continued, at the parties’ request,
should a motion to ratify the terms of the sale not be
ripe as of that date.
SO ORDERED.
/s/ Jennifer A. Di Toro
Judge Jennifer A. Di Toro
Associate Judge
Signed in Chambers
Copies to:

Via First Class Mail:
Melissa L. Barnette
1110 Q Street, NW
Washington, DC 20009
Melissa L. Barnette
1110 Q Street, NW
Washington, DC 20009
1-13

John Reosti
1110 Q Street, NW
Washington, DC 20009
John Reosti
11705 Camelot Way
Fredericksburg, VA 22407
Via Electronic Service-.
Kevin Hildebeidel, Esq.
Linda M. Barran, Esq.

1-14

Rule 5.2. Privacy Protection for Filings Made
with the Court
(a) REDACTED FILINGS. Unless the court orders
otherwise, a party or nonparty must redact, in an
electronic or paper filing with the court, an individual’s
social-security
number,
taxpayer-identification
number, driver’s license or non-driver’s license
identification card number, and birth date; the name of
an individual known to be a minor; and a financialaccount number, except that a party or nonparty
making the filing may include the following:
(1) the acronym “SS#” where the individual’s socialsecurity number would have been included;
(2) the acronym “TID#” where the individual’s
taxpayer-identification number would have been
included;
(3) the acronym “DL#” or “NDL#” where the
individual’s driver’s license or non-driver’s license
identification card number would have been included;
(4) the year of the individual’s birth;
(5) the minor’s initials; and
(6) the last four digits of the financial-account number.
(b) [Omitted],
(c) [Omitted].
(d) FILINGS MADE UNDER SEAL. The court may
order that a filing be made under seal without
redaction. The court may later unseal the filing or
order the person who made the filing to file a redacted
version for the public record.

APPENDIX J

